Report No. DODIG-2012-103                      June 18, 2012





   Accountability of Night Vision Devices Procured for the 

    Afghan National Security Forces Needs Improvement

Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution Unit at
(703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
ANA                           Afghan National Army
ANP                           Afghan National Police
ANSF                          Afghan National Security Forces
CECOM                         U.S. Army Communications-Electronics Command
CoreIMSEE                     Core Inventory Management System Enterprise Edition
DSCA                          Defense Security Cooperation Agency
EUM                           End-Use Monitoring
GAO                           Government Accountability Office
MoD                           Ministry of Defense
MoI                           Ministry of Interior
MTSSA                         Maintenance Tracking Site System Administration
NTM-A/CSTC-A                  North Atlantic Treaty Organization Training Mission-
                                 Afghanistan/Combined Security Transition Command-
                                 Afghanistan
NVD                           Night Vision Device
OVERLORD                      Operational Verification of Reliable Logistics Oversight Database
SAMM                          Security Assistance Management Manual
SCIP                          Security Cooperation Information Portal
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRG INIA 22350- 1500




                                                                                      June 18,2012

MEMORANDUM FOR COMMANDING GENERAL, NORTH ATLANTIC TREATY
                 ORGANIZATION TRAINING
                 MISSION-ArGHANISTAN/COMBINED SECURITY
                 TRANSITION COMMAND-AFGIIANISTAN
               DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Accountability of Night Vision Deviccs Procured for the Afghan National Secmity
         Forces Needs Improvement (Report No, DODlG-20 12-1 03)

We are providing this report for review and comment. We reviewed 000, Afghan National
Secmity Forces, and contractor accountability for 7,157 night vision devices and associated spare
tubes procmed for the Afghan National Security Forces since 2007. Defense Secmity Cooperation
Agency officials, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Secmity Transition Command-Afghanistan officials, Afghan National Secmity Forces officials,
and 000 contractors did not maintain complete accountability of the night vision devices.
Improving accountability will decrease vulnerabilities to theft or loss of night vision devices. We
considered management comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments from
the Defense Secmity Cooperation Agency on Recommendation I and the U.S. Army Materiel
Command on Recommendation 3 were responsive, and no additional comments are required. The
comments from the North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan on Recommendations 2.a, 2.b, and 2.d were
responsive, and no further commcnts are required. However, we request that the Commanding
General, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Secmity
Transition Command-Afghan istan provide additional comments on Recommendations 2.c, 2.e.l,
2.e.2, 2.c.3, 2.f.l, 2.f.2, 2.f.3, and 2.fA by July 18,2012.

Ifpossible, send a portable document format (.pdf) file containing your comments to
audclev@dodig.mil. Copies of your comments must have the actual signatme ofthc authorizing
official for yom organization. We are unable to accept the /Signed/ symbol in place of the actual
signatme. If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SlPRNET).

We appreciate the comtesies extended to the staff. Please direct questions to me at
(703) 604-9077.



                                       1t.~~!AAssistant Inspector Genera{J'-'
                                              Acquisition and Contract Management
Report No. DODIG-2012-103 (Project No. D2011-D000AT-0221.000)                  June 18, 2012



              Results in Brief: Accountability of Night Vision
              Devices Procured for the Afghan National
              Security Forces Needs Improvement

                                                            (CECOM) and NTM-A/CSTC-A officials
What We Did                                                 properly implemented procedures;
We reviewed DoD, Afghan National Security                •	 NTM-A/CSTC-A officials did not always
Forces (ANSF), and contractor accountability                reconcile the NVDs received to the
for 7,157 night vision devices (NVDs) and                   shipping documents, use SCIP for NVD
associated spare tubes procured for the ANSF.               accountability, perform complete physical
                                                            inventories, and provide adequate
What We Found                                               oversight of DoD contractors and ANSF
Defense Security Cooperation Agency (DSCA)                  officials; and
officials, North Atlantic Treaty Organization            •	 CECOM officials did not provide adequate
Training Mission-Afghanistan/Combined                       oversight of DoD contractors.
Security Transition Command-Afghanistan
(NTM-A/CSTC-A) officials, ANSF officials,               As a result, NVDs and associated spare tubes
and DoD contractors did not maintain complete           are more vulnerable to theft or loss, officials
accountability for NVDs and associated spare            cannot rely on the data as a tool to determine
tubes procured for the ANSF. Specifically, we           NVD requirements, and officials cannot perform
identified:                                             effective end-use monitoring.
  •	 342 NVD serial numbers were missing                What We Recommend
      from the Security Cooperation Information
                                                        The Director, DSCA, should provide adequate
      Portal (SCIP) and 88 NVD serial numbers
                                                        oversight of CECOM and NTM-A/CSTC-A.
      were missing from the Operational
      Verification of Reliable Logistics                The Commanding General, NTM-A/CSTC-A,
      Oversight Database (OVERLORD) during              should reconcile all NVDs; use SCIP; perform
      our shipping document reconciliations;            complete physical inventories; retain
  •	 113 NVD serial numbers were missing                documentation; and verify adequate oversight
      from SCIP and 40 NVD serial numbers               and proper implementation of NVD
      were missing from OVERLORD in our                 accountability guidance.
      SCIP and OVERLORD comparisons;                    The Commanding General, CECOM, should
  •	 75 NVDs were unaccounted for during our            verify adequate oversight of DoD contractors.
      physical inventory; and
  •	 397 discrepancies existed in the
	                 Management Comments and
      contractor’s database and
	                       Our Response
      518 discrepancies across four units’
	
                                                        Management agreed with our recommendations.
      property books during our accountable
	
                                                        However, some of the NTM-A/CSTC-A
      record reconciliations.
	
                                                        comments did not address what actions it would
This occurred because:                                  take to correct the reported deficiencies.
 •	 DSCA officials did not provide adequate             Therefore, we request additional comments as
     oversight to verify that U.S. Army                 specified in the recommendations table on the
     Communications-Electronics Command                 back of this page.


                                                  i
	
Report No. DODIG-2012-103 (Project No. D2011-D000AT-0221.000)                June 18, 2012



Recommendations Table

         Management                   Recommendations                No Additional Comments
                                     Requiring Comment                         Required
Commanding General, North        2.c, 2.e.1, 2.e.2, 2.e.3, 2.f.1,   2.a, 2.b, 2.d
Atlantic Treaty Organization     2.f.2, 2.f.3, 2.f.4
Training Mission-
Afghanistan/Combined Security
Transition Command-
Afghanistan

Commanding General, U.S.                                            3
Army Communications-
Electronics Command

Director, Defense Security                                          1
Cooperation Agency


Please provide comments by July 18, 2012.




                                             ii
	
Table of Contents

Introduction	                                                                      1


      Audit Objective                                                              1

      Background on Night Vision Devices Procured for the Afghan National
	
         Security Forces                                                           1

      Internal Control Weaknesses in the Accountability of Night Vision Devices    4


Finding. DoD Did Not Maintain Complete Accountability of Night 

  Vision Devices                                                                   5


      Flow of Night Vision Devices                                                 6

      Defense Security Cooperation Agency Could Improve Oversight of the 

         U.S. Army Communications-Electronics Command and NTM-A/CSTC-A             7
	
      NTM-A/CSTC-A Did Not Reconcile the Shipping Documents to the Night 

         Vision Devices Received                                                   8

      NTM-A/CSTC-A Should Use the Security Cooperation Information Portal          8

      NTM-A/CSTC-A Did Not Perform Complete Physical Inventories                   9

      NTM-A/CSTC-A Must Provide Additional Oversight of the 

         Depot 1 Contractor                                                       10 

      Oversight of the Afghan National Security Forces Needs Improvement          11 

      The U.S. Army Communications-Electronics Command Could Improve Its
	
         Oversight of the Bagram Air Field Contractor                             13 

      Lack of Accountability of Night Vision Devices Poses Security Risk 

         for Soldiers                                                             13 

      Defense Security Cooperation Agency Comments on the Finding and
	
         Our Response                                                             14 

      Recommendations, Management Comments, and Our Response                      14 

      Other Matters of Interest                                                   19 


Appendices

      A. 	Scope and Methodology                                                   20 

             Use of Computer-Processed Data                                       21 

             Prior Coverage                                                       21 

      B. Receiving Records Comparison 	                                           22 

      C. N
         	 TM-A/CSTC-A, DoD Contractors, and Afghan National Security
	
             Forces Accountable Systems and Records Comparison                    24 

      D. Defense Security Cooperation Agency Comments on the Finding and

             Our Response                                                         25 

Table of Contents (cont’d)

Management Comments

     NTM-A/CSTC-A                          27 

     U.S. Army Materiel Command            29 

     Defense Security Cooperation Agency   34 

Introduction

Audit Objective
The objective of our audit was to evaluate accountability for night vision devices (NVDs) and
associated spare parts procured for the Afghan National Security Forces (ANSF). See
Appendix A for a discussion of the scope and methodology related to the objective.

Background on Night Vision Devices Procured for the Afghan
National Security Forces
Afghan National Security Forces
The ANSF includes the Afghan National Army (ANA) and the Afghan National Police (ANP).
These units provide security throughout Afghanistan. The Government Accountability Office
(GAO) has reported concerns with the ANSF’s ability to safeguard and properly account for the
sensitive equipment provided to the ANSF by the DoD. The Government of Afghanistan
Ministry of Defense (MoD) oversees the ANA and the Government of Afghanistan Ministry of
Interior (MoI) oversees the ANP.

North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan
The North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan (NTM-A/CSTC-A) oversees goods and services procured for
the ANSF. NTM-A/CSTC-A officials’ oversight consists of assisting the ANSF in developing
and implementing adequate accountability procedures for equipment purchased with the
Afghanistan Security Forces Fund.

Afghanistan Security Forces Fund
Congress created the Afghanistan Security Forces Fund in FY 2005 as an emergency
supplemental appropriation for equipment and services purchases to support the ANSF.
Congress appropriated approximately $39.7 billion to this fund between FY 2005 and FY 2011.
Through this fund, the Defense Security Cooperation Agency (DSCA) uses pseudo-foreign
military sales 1 procedures to procure items and services to support the ANSF. Procedurally, the
Office of the Under Secretary of Defense (Comptroller) prepares a budget for specific equipment
requirements identified by NTM-A/CSTC-A. Following budget approval, the Assistant
Secretary of the Army (Financial Management and Comptroller) distributes these funds to
NTM-A/CSTC-A.




1
 Foreign military sales are formal agreements between the U.S. Government and authorized foreign governments to
provide defense articles. With pseudo-foreign military sales, the U.S. Government is not selling defense articles to a
foreign government but instead to another U.S. Government entity.


                                                          1

Defense Security Cooperation Agency
DSCA officials are responsible for financial management of foreign military sales. DSCA
directs, administers, and provides overall guidance for the execution of security cooperation
programs through foreign military sales. Specifically, DSCA determines which agency to route
purchase requests to, based on the type of goods or services required. DSCA uses the U.S. Army
Communications-Electronics Command (CECOM) to procure communications and electronics
equipment and services for the ANSF.

U.S. Army Communications-Electronics Command
CECOM develops, acquires, provides, and sustains command, control, communications,
computers, intelligence, surveillance, and reconnaissance systems for the joint warfighter. With
the exception of 2,410 NVDs procured by the Kabul Regional Contracting Center in 2007,
CECOM procured the NVDs provided to the ANSF. In addition, CECOM is responsible for
oversight of the Bagram Air Field NVD repair facility contract.

Night Vision Devices Accountability
DoD Manual 5105.38-M, “Security Assistance Management Manual,” October 3, 2003,
(the SAMM) provides guidance on accountability over sensitive defense articles, such as NVDs
and associated spare parts. NVDs are portable devices, which incorporate image intensification,
infrared, thermal, or sensor-fused technologies to provide a visible image. They include night
vision goggles, forward-looking infrared, thermal sights, and low-light level television. NVDs
generally consist of an outer casing, objective lens, eyepiece, power supply, and image
intensifier tubes (tubes). The NVDs are sensitive, unclassified significant military equipment
and require enhanced end-use monitoring (EUM).

End-Use Monitoring
Public Law 111-84, “The National Defense Authorization Act of FY 2010,” October 28, 2009,
section 1225, requires a control system for registration and EUM of defense articles transferred
to the ANSF. EUM includes inventories by the purchasing country and the Security Cooperation
Organization, as well as, compliance assessments by a DSCA-led team. Additionally,
NTM-A/CSTC-A Standard Operating Procedures, “Afghanistan Golden Sentry End-Use
Monitoring (EUM) Program SOP,” May 31, 2009, established procedures for conducting
physical inspections, property book reviews, and other inventories during site visits to various
locations with NVDs. By using these procedures, NTM-A/CSTC-A officials can ensure
visibility of NVDs procured for the ANSF and meet EUM requirements.

Security Cooperation Information Portal
DSCA created the Security Cooperation Information Portal (SCIP) database so customers can
easily view information related to their foreign military sales cases. SCIP is the primary
repository of data meant to establish a baseline of all EUM items transferred to foreign countries,
including Afghanistan. SCIP enables users to track defense article items, such as NVDs, at the
serial number level on a country-by-country basis. Authorized users can also add, edit, and
remove items. SCIP must include accurate and current data. When properly maintained, SCIP




                                                 2

provides inventory reports that can help the EUM team identify items not inventoried within the
required time frame and to plan for upcoming inventories.

Operational Verification of Reliable Logistics Oversight Database
NTM-A/CSTC-A uses the Operational Verification of Reliable Logistics Oversight Database
(OVERLORD) for NVD registration to support EUM. OVERLORD contains equipment listed
in foreign military sales case files and identified by NTM-A/CSTC-A during physical
inventories. OVERLORD has the capability to identify the serial number, receipt date, and
location for each NVD in Afghanistan when the database is properly maintained. The EUM
section of OVERLORD assists in the 100 percent accountability of NVDs for Afghanistan.

DoD Contractor Systems
The Core Inventory Management System Enterprise Edition (CoreIMSEE) is the official tool
used by Depot 1 contractors to manage the ANA inventory. According to ANA Standard
Operating Procedures, “Depot Operations Afghanistan,” May 30, 2011, Depot 1 contractors must
enter information into CoreIMSEE to maintain accurate records and accountability of items.
When properly maintained, Depot 1 contractors can access CoreIMSEE to verify the receipt and
issuance of equipment. Additionally, Bagram Air Field NVD repair facility contractors use the
Maintenance Tracking Site System Administration (MTSSA) as a real-time maintenance
tracking database.

Afghanistan Accountability
The MoD ANA Decree 4.2, “Materiel Accountability Policy and Procedures,” undated,
(Decree 4.2) and MoI Logistics Policy, “Process for the Management of Logistics,”
January 6, 2009, require that ANSF officials maintain NVD serial numbers in the unit property
books. The ANA procedures require the following MoD Forms be used to track the
accountability of each NVD. 2

       •	 MoD Form 9, “Issue and Turn-in Order,” documents transfers between the depots and the
          units.
       •	 MoD Form 3328, “Property Record,” is the unit’s property book. The property book
          must include all of the NVDs assigned to the unit to ensure adequate accountability.
       •	 MoD Form 2062, “Property Receipt,” transfers the NVDs from the unit property book
          officer to a specific company.
       •	 MoD Form 3, “Hand Receipt,” transfers individual NVDs from the company to an
          individual.
       •	 MoD Form 63, “Maintenance Work Orders,” transfers NVDs for maintenance and repair.
       •	 MoD Form 4697, “Material Investigation Report,” reports damaged or destroyed NVDs.




2
    The ANP procedures require a similar process with forms issued by the MoI.


                                                          3

Internal Control Weaknesses in the Accountability of Night
Vision Devices
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and to
evaluate the effectiveness of the controls. We identified internal control weaknesses associated
with the accountability of NVDs procured for the ANSF. Specifically, DSCA officials did not
have controls in place to confirm that CECOM officials implemented procedures for entering the
NVD data into SCIP and that NTM-A/CSTC-A officials implemented procedures for validating
the accuracy of the NVD information in SCIP. In addition, NTM-A/CSTC-A officials did not
have controls in place to adequately implement existing NVD accountability policies and
procedures. Furthermore, NTM-A/CSTC-A and CECOM contracting officer’s representatives
did not provide adequate oversight of DoD contractors and ANSF officials. We will provide a
copy of the report to the senior officials responsible for internal controls at DSCA,
NTM-A/CSTC-A, and CECOM.




                                               4

Finding. DoD Did Not Maintain Complete
Accountability of Night Vision Devices
DSCA officials, NTM-A/CSTC-A officials, ANSF officials, and DoD contractors did not
maintain complete accountability for NVDs and associated spare tubes procured for the ANSF.
Specifically:
   • of the 7,139 NVD serial numbers 3 listed in the shipping documents, SCIP did not include
	
       342 NVD serial numbers and OVERLORD did not contain 88 NVD serial numbers;
	
   • of the 7,189 NVD serial numbers 4 listed in OVERLORD, SCIP did not include 113 NVD 

       serial numbers;
   • of the 7,116 NVD serial numbers 5 listed in SCIP, OVERLORD did not contain 40 NVD
       serial numbers;
   • of the 1,540 NVDs listed in the June 8, 2011, OVERLORD, NTM-A/CSTC-A officials
       did not account for 75 NVDs;
   •	 we identified 397 discrepancies of the 1,039 NVD serial numbers listed in the Depot 1
       contractor’s CoreIMSEE; and
   •	 we identified 518 discrepancies of the 1,841 NVD serial numbers listed in the property
       book records across 4 ANSF locations.

This occurred because:
   •	 DSCA officials did not provide adequate oversight to verify that CECOM officials
       properly implemented procedures for inputting NVDs received into SCIP and that
       NTM-A/CSTC-A officials properly implemented procedures for validating the accuracy
       of the NVD information in SCIP;
   •	 NTM-A/CSTC-A officials did not:
           o	 reconcile all the NVDs received to the shipping documents,
           o	 use SCIP to account for NVDs procured for the ANSF,
           o	 perform complete physical inventories, and
           o	 provide adequate oversight of DoD contractors and ANSF officials; and
   •	 CECOM officials did not provide adequate oversight of the DoD contractor.

As a result, the NVDs and associated spare tubes are more vulnerable to theft or loss, putting
U.S. and ANSF soldiers at greater security risk during night missions in Afghanistan. In
addition, DoD and ANSF officials cannot rely on the NVD accountability records as a tool to
determine NVD requirements. Furthermore, DSCA and NTM-A/CSTC-A officials cannot
perform effective EUM to prevent the misuse or illicit transfer of the NVDs procured for the
ANSF. Finally, DoD officials inputting the same data into multiple systems is inefficient and
increases the risk of inaccuracies.


3
  The shipping documents contained a universe of 7,139 NVD serial numbers, as opposed to the 7,157 NVD serial
	
numbers on contract. We were unable to obtain shipping documents for 18 NVD serial numbers.
	
4
  OVERLORD contained a universe of 7,189 NVD serial numbers on June 28, 2011, as opposed to the 7,157 NVD
	
serial numbers on contract as of that date.
	
5
  SCIP contained a universe of 7,116 NVD serial numbers on June 29, 2011, as opposed to the 7,157 NVD serial
	
numbers on contract as of that date.
	


                                                       5

Flow of Night Vision Devices
The following figure generally illustrates the material flow of NVDs procured for the ANSF.
Defense Contract Management Agency officials accept the NVDs from the vendor and generate
a DD Form 250, “Material Inspection and Receiving Report,” listing all of the NVD serial
numbers. CECOM receives the serial numbers and forwards the lists to DSCA and
NTM-A/CSTC-A officials for defense article registration. Upon receipt of the serial numbers,
DSCA and NTM-A/CSTC-A officials enter the NVD data into SCIP and OVERLORD,
respectively. When the NVDs arrive in Afghanistan, the depot personnel manually input the
NVD data into their accountability records. NTM-A/CSTC-A officials verify the serial numbers
from the NVDs received to the data previously input into OVERLORD and send the inventoried
serial numbers to DSCA to update SCIP, as appropriate. The depot personnel use MoD and MoI
Form 9s to transfer accountability from the depots to the ANSF units. NTM-A/CSTC-A officials
update the locations based on the ANSF units receiving the NVDs. Officials at each unit use a
manual property book record to maintain accountability over NVDs. If an NVD is damaged,
ANSF officials transfer the NVD to the Bagram Air Field repair facility where the contractor
manually enters the data into MTSSA.

                           Figure. Flow of NVDs Procured for the ANSF
                                    Defense Contract
                                                                                            Indicates data entry
                                   Management Agency
        NVD Vendors
                                                           Shipping Documents




                                      DD Form 250
                                                                                            NVDs shipped to
                                                          DSCA                               Afghanistan
                                                          SCIP


       Bagram Air Field R
                        Repair
                         epair                          Defense
              Facility               CECOM               Article
                                  Serial Numbers       Registration
                                                       Registration                 NTM-A/CSTC-A
                                                                                    receipt verification


                                                      NTM-A/CSTC-A
              MTSSA                                    OVERLORD

                                                                                    ANA Depot
                ANA Unit                       MoD Form 9                           CoreIMSEE
            Manual Property Book
                  Records




                                                      Form 9


               ANP Unit
           Manual Property Book                    MoI Form 9                        ANP Depot
                 Records                                                        Manual Inventory System

                                    Source: DoD Office of the Inspector General.




                                                                6
	
Defense Security Cooperation Agency Could Improve
Oversight of the U.S. Army Communications-Electronics
Command and NTM-A/CSTC-A
DSCA officials did not maintain complete accountability for NVDs procured for the ANSF.
Specifically, we identified 342 of the 7,139 NVD serial numbers that were included on the
shipping documents, but not listed in SCIP. See Appendix B, Tables B-1 and B-2 for this
comparison. This occurred because DSCA officials did not provide adequate oversight to verify
that CECOM officials properly implemented procedures for inputting NVDs received into SCIP
and that NTM-A/CSTC-A officials properly implemented procedures for validating the accuracy
of the NVD information in SCIP. DoD Instruction 4140.66, “Registration and End-Use
Monitoring of Defense Articles and/or Defense Services,” September 7, 2010, requires that
DSCA manage and implement the EUM program and establish policy. In addition, the
Instruction states that DSCA officials must enforce an NVD registration and monitoring system
and conduct reviews of DoD Components, including CECOM and NTM-A/CSTC-A, to confirm
consistent and proper implementation of the guidance. The SAMM also requires CECOM, as
the Implementing Agency, to input the item serial number information into SCIP. Furthermore,
the SAMM states that NTM-A/CSTC-A, as the Security Assistance Office, must verify that all
EUM items are included by serial number in SCIP and review SCIP to validate that the system
contains accurate and current inventory records.

Although CECOM officials were responsible for entering the data into SCIP, they provided the
NVD information to DSCA officials to enter into SCIP. According to a CECOM official,
CECOM sends DSCA a spreadsheet with the serial numbers to upload into SCIP prior to the
NVDs arriving in Afghanistan. However, the NVD serial numbers were not always entered in
SCIP. For example, the vendor shipped 100 NVDs to Afghanistan on May 23, 2011, but as of
June 29, 2011, these NVD serial numbers were not in SCIP.

In addition, NTM-A/CSTC-A officials did not validate the accuracy of the NVD data in SCIP.
For example, the vendor shipped 362 NVDs to Afghanistan between December 2009 and
March 2010. However, as of June 29, 2011, NTM-A/CSTC-A officials had not confirmed that
5 of the 362 NVD serial numbers were input into SCIP. DSCA officials stated that they took
corrective action to address the identified discrepancies. However, we did not verify whether the
corrective action resolved the discrepancies. DoD officials cannot accurately determine the
number of NVDs in Afghanistan or those NVDs that may have been lost or stolen without
accurate data in SCIP. DSCA officials should verify that CECOM and NTM-A/CSTC-A
officials consistently and properly implement the EUM guidance to accurately maintain SCIP.
When properly maintained, DoD officials could use SCIP as a tool to determine NVD
requirements.




                                                7

NTM-A/CSTC-A Did Not Reconcile the Shipping Documents
to the Night Vision Devices Received
NTM-A/CSTC-A officials did not maintain complete accountability for NVDs procured for the
ANSF. Specifically, we identified 88 of 7,139 NVD serial numbers listed in the shipping
                                               documents, but not accounted for in
     We identified 88 of 7,139 NVD serial
                                               OVERLORD by NTM-A/CSTC-A officials.
  numbers listed in the shipping documents,
                                               See Appendix B, Tables B-1 and B-2 for this
   but not accounted for in OVERLORD by
                                               comparison. This occurred because
           NTM-A/CSTC-A officials.
                                               NTM-A/CSTC-A officials did not adequately
implement existing policies and procedures for performing inventories or retaining adequate
documentation of the NVDs received. Specifically, the SAMM requires that the Combatant
Command or U.S. Government representative conduct 100 percent inventories by serial number,
for each NVD shipment upon delivery. However, NTM-A/CSTC-A officials did not have
documentation to show that they consistently performed these serialized inventories for the
NVDs arriving in Afghanistan. A majority of the NVD serial numbers missing in OVERLORD
were from shipments delivered before establishment of the NTM-A/CSTC-A EUM team. Since
the team’s establishment, NTM-A/CSTC-A EUM officials stated that they have performed
inventories upon delivery. A review of the shipments since the team’s establishment shows that
the NVD serial numbers from the shipping documents more closely match the NVD serial
numbers in OVERLORD. However, we still identified differences. See Appendix B, Table B-2
for this comparison. Upon receipt in Afghanistan, NTM-A/CSTC-A officials should reconcile
the NVD serial numbers to the corresponding shipping documents to verify that all NVDs the
vendor shipped arrived in Afghanistan. Otherwise, the NTM-A/CSTC-A officials cannot
determine whether NVDs were lost or stolen during delivery.

NTM-A/CSTC-A Should Use the Security Cooperation
Information Portal
NTM-A/CSTC-A officials did not maintain complete accountability for NVDs procured for the
ANSF. Specifically, of the 7,189 NVD serial numbers listed in OVERLORD, we identified
                                       113 NVD serial numbers missing from SCIP. See
   We identified 113 NVD serial
                                       Appendix B, Tables B-1 and B-4 for this comparison. In
    numbers missing from SCIP.
                                       addition, of the 7,116 NVD serial numbers listed in SCIP,
we identified 40 NVD serial numbers missing from OVERLORD. See Appendix B, Tables B-1
and B-3 for this comparison. This occurred because NTM-A/CSTC-A officials used
OVERLORD instead of SCIP. The NTM-A/CSTC-A EUM Program Standard Operating
Procedures require NTM-A/CSTC-A officials to use SCIP. DSCA officials must rely on the
OVERLORD data to identify the locations of NVDs for their EUM compliance visits because
NTM-A/CSTC-A officials did not use SCIP. However, we identified 3,260 NVD serial numbers
assigned to different locations in SCIP and OVERLORD. Therefore, the DSCA EUM team
cannot use SCIP to determine the number of NVDs at each ANSF unit that require EUM.
NTM-A/CSTC-A officials can avoid manually inputting the same data numerous times and
reduce inaccuracies by using SCIP as their NVD accountability system. In addition, DSCA
officials should work with NTM-A/CSTC-A officials to maintain accurate data in SCIP. When




                                               8

properly maintained, DSCA and NTM-A/CSTC-A officials can rely on the SCIP data to
effectively and efficiently perform EUM compliance visits to prevent the misuse or illicit
transfer of the NVDs.

NTM-A/CSTC-A Did Not Perform Complete Physical
Inventories
NTM-A/CSTC-A officials did not maintain complete accountability for NVDs procured for the
ANSF. Specifically, we compared our physical inventory results from site visits to the Afghan
Partnering Unit, Crisis Response Unit, and 1st and 3rd Commando Kandaks, 6 to the 1,540 NVD
serial numbers listed in the June 8, 2011, OVERLORD database and identified 75 NVDs that
NTM-A/CSTC-A officials could not account for. This occurred because NTM-A/CSTC-A
officials did not perform complete physical inventories or retain complete shipping, receiving,
and transfer documentation for each NVD. The following table details the results of our
comparison.

                Table. Summary of NVDs Not Accounted for Through Physical

                         Verification or Supporting Documentation

                                Listed in                              Remain
                                            Physically   Otherwise
               Location          June 8                             Unaccounted
                                             Verified   Documented
                                Universe                                 For
         1st Commando Kandak        360           0         360            0
         3rd Commando Kandak              553          496         29              28
         Afghan Partnering Unit           527          389         91              47
         Crisis Response Unit             100          100          0                0
            Total                       1,540          985        480              75

Of the 1,540 NVDs listed, we physically verified 985 NVDs. We obtained supporting
documentation, including transfer, maintenance, and lost or destroyed documents, for an
additional 480, but NTM-A/CSTC-A officials could not account for the remaining 75 NVDs. An
NTM-A/CSTC-A official stated that their EUM team did not always verify that ANSF officials
took corrective action on the recommendations made as a result of the EUM visits.
NTM-A/CSTC-A officials should perform complete physical inventories at the ANSF locations
to reduce the risk of theft or loss of the NVDs. In addition, NTM-A/CSTC-A officials should
follow up on prior recommendations and obtain documentation justifying why NVDs were not
observed onsite.

In addition, DoD Instruction 4140.66 outlines procedures for retaining a detailed record of
origin, shipping, and distribution for each item provided to the ANSF. However,
NTM-A/CSTC-A officials did not retain this documentation for NVDs initially received or
transferred in Afghanistan. During our audit, NTM-A/CSTC-A officials established a baseline



6
    1st and 3rd Commando Kandaks are ANSF commando units.


                                                     9

of NVDs by issuing “Transfer of Title” memoranda to 9 of the 16 ANSF units because they did
not retain the corresponding MoD Form 9s. While the intent of these memoranda is to establish
accountability for the NVDs currently assigned to the units, there is no assurance that the
memoranda account for all of the NVDs provided to the ANSF units. NTM-A/CSTC-A officials
should retain complete shipping, receiving, and transfer documentation for each NVD procured
for the ANSF. Without this documentation, NTM-A/CSTC-A officials cannot adequately
determine the number of NVDs that arrived in Afghanistan or were transferred to specific ANSF
units, leaving the NVDs more vulnerable to theft or loss.

NTM-A/CSTC-A Must Provide Additional Oversight of the
Depot 1 Contractor
The Depot 1 contractor did not maintain complete accountability for NVDs procured for the
ANSF. Specifically, we identified 397 discrepancies from the 1,039 NVD serial numbers
reviewed from CoreIMSEE. See Appendix C for the details. This occurred because the
NTM-A/CSTC-A contracting officer’s representative did not provide adequate oversight to
verify that the Depot 1 contractor maintained accurate property records, retained receipt and
transfer documents, and performed the required physical inventories. The NTM-A/CSTC-A
contracting officer’s representative is responsible for overseeing the Depot 1 contractor and
verifying that it complies with the applicable requirements.

The Depot 1 contractor did not maintain accurate property records. According to the MoD ANA
Supply Depot 1 Standard Operating Procedures, the Depot 1 contractor must process all receipts
within 24 hours of delivery and input the items into CoreIMSEE within 48 hours of delivery.
However, the Depot 1 contractor did not always process receipts in CoreIMSEE within the
required time frame. Specifically, we identified 328 NVDs that the 1st Commando Kandak
returned to Depot 1 that the contractor did not input into CoreIMSEE within the required time.
In addition, the contractor did not retain receipt and transfer documents. The Depot 1 standard
operating procedure requires that the contractor maintain records identifying the status and final
destination of all materials and products. However, the contractor did not provide receipt or
transfer documents. Specifically, the contractor stated that prior to May 25, 2011, it did not
provide copies of the MoD Form 9s to NTM-A/CSTC-A officials. In addition, the contractor did
not provide us any MoD Form 9s for the NVDs issued to the ANSF. Furthermore, the contractor
did not perform the required physical inventories. The Depot 1 standard operating procedure
requires that the contractor perform 100 percent quarterly physical inventories. The contractor
stated it performed 20 percent inventories monthly and 100 percent physical inventories
quarterly. However, the contractor did not provide supporting documentation to validate these
statements. Without accurate data in the contractor’s property records, DoD and ANSF officials
cannot rely on the records as a tool to determine NVD requirements for the ANSF.

Before our site visit, NTM-A/CSTC-A officials identified problems with contractor performance
at Depot 1. This contractor was still onsite during our visit, and we identified similar issues.
DoD officials have since terminated the prime contractor at Depot 1, and a new contractor has
assumed Depot 1 responsibilities. However, we did not perform additional testing at Depot 1 to
determine whether the issues were resolved. Therefore, the NTM-A/CSTC-A contracting
officer’s representative should provide adequate oversight of the Depot 1 contractor to verify that



                                                10 

the contractor maintains accurate data in the NVD accountable system, retains the required
receipt and transfer documents, and performs physical inventories. This could prevent similar
issues from occurring again at Depot 1.

Oversight of the Afghan National Security Forces Needs
Improvement
ANSF officials did not maintain complete accountability for NVDs procured for the ANSF.
Specifically, we identified 518 discrepancies from the 1,841 NVD serial numbers reviewed at
4 ANSF locations. See Appendix C for the details. This occurred because NTM-A/CSTC-A
officials, as the responsible mentor, did not provide oversight to verify that ANSF officials
maintained accurate property book records, reported lost or destroyed NVDs, consistently issued
NVDs to soldiers on mission, and performed the required inventories.

Maintain Accurate Property Book Records
ANSF officials did not maintain complete accountability for NVDs procured for the ANSF
because NTM-A/CSTC-A officials did not provide oversight to verify that ANSF officials
                                        maintained accurate property book records. Decree 4.2
    The Crisis Response Unit did not    and the MoI Logistics Policy, “Process for the
     have property books listing the    Management of Logistics,” January 6, 2009, require
          NVDs issued to them.          that ANSF officials maintain property books that
accurately list the NVDs on-hand by serial number. However, ANSF officials did not always
maintain these records. For example, the Crisis Response Unit did not have property books
listing the NVDs issued to them. In addition, ANSF officials did not always update the property
records to maintain accuracy. For example, we identified 195 NVDs that were delivered to the
Afghan Partnering Unit on June 11, 2011, but were not recorded in the unit's property records
during our July 10, 2011, site visit.

In addition, Decree 4.2 identifies that materiel investigation reports should document the
circumstances concerning the loss, damage, or destruction of government equipment and support
adjustments to the accountable records. The material investigation report relieves the ANSF of
responsibility and accountability of these NVDs. However, ANSF officials did not always
remove destroyed NVDs from their property records. For example, the 3rd Commando Kandak
listed 23 NVD serial numbers in their property records that were not present during our
July 13, 2011, site visit. A NTM-A/CSTC-A memorandum dated May 25, 2010, stated that the
MoD destroyed these NVDs, which fulfilled the requirement of a materiel investigation report.
Therefore, ANSF officials should have removed the 23 destroyed NVDs from the unit's property
records. DoD and ANSF officials could rely on the ANSF property records as a tool to
determine NVD requirements for the ANSF if the information was accurate. NTM-A/CSTC-A
officials should verify that ANSF officials are maintaining accurate property book records as
required, before issuing additional NVDs.

Report Lost or Destroyed Night Vision Devices
ANSF officials did not maintain complete accountability for NVDs procured for the ANSF
because NTM-A/CSTC-A officials did not provide oversight to verify that ANSF officials
reported lost or destroyed NVDs. The MoD Compliance Plan, “Storage, Security and Inventory


                                              11 

of Night Vision Devices,” June 28, 2008, and MoI Compliance Plan, “Storage, Security and
Inventory of Night Vision Devices,” September 20, 2010, (jointly referred to as Compliance
Plans) require that the MoD and MoI report any instance of compromise, destruction,
unauthorized use, loss, or theft of an NVD. However, MoD officials did not always perform an
investigation or report lost NVDs to NTM-A/CSTC-A Security Assistance Office. For example,
Afghan Partnering Unit officials prepared the appropriate documentation to disclose four lost
NVDs. However, MoD officials did not prepare their required memorandum informing the
NTM-A/CSTC-A Security Assistance Office of the loss. Therefore, Afghan Partnering Unit
officials cannot remove these NVDs from their property books until MoD officials provide the
memorandum, as required by the Compliance Plan. In addition, the Afghan Partnering Unit
cannot receive replacement NVDs, leaving ANSF soldiers at greater security risk during night
missions in Afghanistan.

In August 2011, in response to our findings related to the MoD not properly reporting lost or
destroyed NVDs, NTM-A/CSTC-A officials issued a memorandum stating that they will no
longer issue NVDs to the ANA until the MoD fully complies with the requirements outlined in
the Compliance Plan. NTM-A/CSTC-A officials should verify that MoD and MoI officials are
reporting instances of compromise, destruction, unauthorized use, loss, or theft before resuming
issuance of NVDs.

Issue Night Vision Devices on Mission
ANSF officials did not maintain complete accountability for NVDs procured for the ANSF
because NTM-A/CSTC-A officials did not provide oversight on the processes and procedures
                                    used to issue NVDs to soldiers on mission. Decree 4.2 states
   ANSF officials used various      that individuals are responsible for sensitive items issued to
  methods to account for NVDs       them using the MoD Form 3. However, neither Decree 4.2
  issued to soldiers on mission.    nor the Compliance Plans outline specific procedures to
                                    account for NVDs provided to soldiers on mission. As a
result, ANSF officials used various methods to account for NVDs issued to soldiers on mission.
For example, officials with the 3rd Commando Kandak issued NVDs to the unit commander
instead of the soldier. At the Afghan Partnering Unit, armorers issued NVDs with other
equipment to individual soldiers, but they did not update the equipment log books until the
soldier returned all of the equipment. As a result, the armorers’ equipment log books
inaccurately listed returned NVDs as on mission. NTM-A/CSTC-A officials should work with
ANSF officials to add sufficient, detailed guidance in Decree 4.2 and Compliance Plans to
account for NVDs issued to soldiers on mission and verify proper implementation of the new
requirements.

Perform Inventories
ANSF officials did not maintain complete accountability for NVDs procured for the ANSF
because NTM-A/CSTC-A officials did not provide oversight to verify that ANSF officials
performed the required inventories and retained inventory records. Decree 4.2 requires that
ANSF officials inventory sensitive items monthly. It also identifies that officials should
physically count and verify sensitive items by serial number and report any discrepancies to the
property book officer. In addition, the Compliance Plans require that the unit commander or
designated representative retain NVD inventory records for a minimum of one year. The


                                                12 

Decree 4.2 does not include this requirement. While Afghan Partnering Unit officials stated they
perform physical inventories, they provided documentation that confirmed they perform physical
counts rather than verifying the serial numbers of each NVD. Crisis Response Unit and
1st Commando Kandak officials stated that an independent group performed their monthly
inventories, but they did not have the inventory records available. Although 3rd Commando
Kandak officials stated that they perform the monthly inventories, NTM-A/CSTC-A officials
stated they were not confident that the unit is performing the inventories. Therefore, the ANSF
units did not comply with the requirements from Decree 4.2 or Compliance Plans. ANSF
officials cannot accurately identify missing NVDs without serialized physical inventories.
NTM-A/CSTC-A officials should work with ANSF officials to add specific guidance in
Decree 4.2 and the Compliance Plans, including timelines for record retention.
NTM-A/CSTC-A officials should verify that ANSF officials are conducting monthly serialized
inventories and retaining records of these inventories before issuing additional NVDs.

The U.S. Army Communications-Electronics Command Could
Improve Its Oversight of the Bagram Air Field Contractor
The Bagram Air Field repair facility contractor did not maintain complete accountability of
NVDs and associated spare tubes procured for the ANSF. This occurred because the CECOM
                                   contracting officer’s representative did not provide adequate
  Contractor did not maintain oversight to confirm the Bagram Air Field repair facility
    accurate records for the       contractor maintained accurate inventories of sensitive items.
      spare tubes on-hand.         The CECOM contracting officer’s representative is responsible
for overseeing the Bagram Air Field repair facility contractor and verifying that they comply
with the applicable requirements. The performance work statement requires that the Bagram Air
Field repair facility contractor maintain accurate inventories for sensitive items. However, the
Bagram Air Field repair facility contractor did not maintain accurate records for the spare tubes
on-hand. Specifically, the Bagram Air Field repair facility contractor provided a list of 106 spare
tubes on July 15, 2011, from MTSSA. During our July 16, 2011, site visit, they provided
subsequent lists increasing the total to 261 spare tubes. After our site visit, the Bagram Air Field
repair facility contractor provided another revised MTSSA list with 331 spare tubes. Without
accurate inventory records, DoD and ANSF officials cannot rely on the data as a tool to
determine NVD spare tube requirements. The CECOM contracting officer’s representative
should provide adequate oversight to verify that the Bagram Air Field repair facility contractor
maintains accurate inventories of sensitive items.

CECOM officials identified problems with contractor performance at the Bagram Air Field
repair facility, similar to the issues we observed. To improve performance, the prime contractor
at the Bagram Air Field repair facility terminated its sub-contractor. CECOM officials also
requested additional contracting officer’s representatives to oversee the Bagram Air Field repair
facility contractor, as a result of our audit.

Lack of Accountability of Night Vision Devices Poses
Security Risk for Soldiers
DSCA officials, NTM-A/CSTC-A officials, ANSF officials, and DoD contractors did not
maintain complete accountability of NVDs and associated spare tubes procured for the ANSF,


                                                13 

making these items more vulnerable to theft or loss. Therefore, U.S. and ANSF soldiers may be
at greater security risk during night missions in Afghanistan. In addition, DoD and ANSF
officials cannot determine reliable requirements and perform effective EUM because they did not
maintain accurate data in the various accountability systems. Currently, the systems do not have
an automated interface. Therefore, DoD officials must manually input data into SCIP and
OVERLORD causing inefficiencies and a greater potential for data entry errors. In addition,
ANSF officials and DoD contractors did not accurately maintain their property book records. As
a result, officials cannot accurately determine the number of NVDs in Afghanistan.

Defense Security Cooperation Agency Comments on the
Finding and Our Response
Summaries of the DSCA comments on the finding and our response are in Appendix D.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Director, Defense Security Cooperation Agency, provide
adequate oversight to verify that U.S. Army Communications-Electronics Command and
the North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan properly implement procedures for inputting night
vision devices received and validating the accuracy of the night vision devices information
in the Security Cooperation Information Portal.

Defense Security Cooperation Agency Comments
The Acting Director, DSCA, partially agreed and stated that DSCA does not have direct
oversight authority over CECOM or NTM-A/CSTC-A. He stated that DSCA officials will
continue to work through the Department of the Army and U.S. Central Command to enhance
procedures used by CECOM and NTM-A/CSTC-A to verify consistent monitoring of NVDs.
The Acting Director stated that DSCA implemented metrics to monitor accountability and
progress of inventories performed by NTM-A/CSTC-A. In addition, he stated that DSCA
included language in Chapter 8 of the revised “Security Assistance Management Manual,”
April 30, 2012, delineating responsibilities regarding the input of serial numbers into SCIP and is
pursuing an automated process to improve accountability of equipment requiring enhanced
EUM. The Acting Director stated that DSCA will continue to monitor NTM-A/CSTC-A’s
compliance with DoD EUM policy through compliance assessment visits. These visits validate
the accuracy of NVD information in SCIP through inventories and physical security checks of
storage facilities.

U.S. Army Materiel Command Comments
Although not required to comment, the Executive Deputy to the Commanding General, U.S.
Army Materiel Command, responded that CECOM is currently unable to implement the required
actions because CECOM never received access to input data into SCIP. Access is kept at the
DSCA EUM level. He stated that this is consistent with Chapter 8 of the “Security Assistance
Management Manual,” which cites responsibilities for Military Departments and implementing
agencies. In addition, the Executive Deputy stated that the CECOM Security Assistance


                                                14 

Management Directorate Enterprise Soldier Avionics Division provides the U.S. Army Security
Assistance Command a monthly NVD serial number report. He stated that the Security
Assistance Management Directorate Intensive Management Office also provides a serial number
report for input into SCIP before the physical shipment of the NVDs. The Executive Deputy
stated that the operation procedure and policy for inputting and validating the accuracy of NVDs
in SCIP should be reviewed for feasibility and distributed once updated.

Our Response
Although the Acting Director, DSCA, partially agreed, we consider the comments responsive,
and the actions met the intent of the recommendation. No further comments are required.
According to DoD Manual 5105.38-M, “Security Assistance Management Manual,”
October 3, 2003, Chapter 8, “End-Use Monitoring (EUM),” it is the Military Departments’ and
implementing agencies’ responsibility to input item serial number information into SCIP. DSCA
canceled this DoD Manual and reissued it as DSCA Manual 5105.38-M, “Security Assistance
Management Manual,” April 30, 2012. The updated policy requires the Military Departments
and implementing agencies to provide a monthly delivery record with serial numbers of
enhanced EUM items to DSCA for input into SCIP. As the Executive Deputy stated, CECOM
officials are following the updated policy by providing a monthly serial number report for input
into SCIP.

2. We recommend that the Commanding General, North Atlantic Treaty Organization
Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan:

       a. Reconcile all the night vision devices received to the shipping documents.

North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan
Comments
The Director, Security Assistance Office-Afghanistan, responded for the Commanding General,
NTM-A/CSTC-A. He agreed and stated that the depot contractors, with oversight by the Deputy
Commander-Support Operations Regional Support Command-Capital, now reconcile every
shipment of NVDs to shipping documents. In addition, the Director stated that the EUM team at
the Regional Support Command-Capital performs a 100 percent post-delivery verification
against the serial numbers loaded into SCIP. He stated that the Security Assistance Office-
Afghanistan’s Validation Branch and the CECOM Liaison Officer resolve any discrepancies.

Our Response
The NTM-A/CSTC-A comments were responsive, and no additional comments are required.




                                               15 

       b. Use the Security Cooperation Information Portal as their accountability system
for night vision devices.

North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan
Comments
The Director, Security Assistance Office-Afghanistan, agreed and stated that the Security
Assistance Office-Afghanistan completed migration to SCIP in January 2012. He stated that the
Deputy Commander-Support Operations will continue to track NVDs at Depot 1 using
CoreIMSEE. The Director stated that the ANSF units will continue to use their paper-based
property books for accountability of NVDs transferred to them.

Defense Security Cooperation Agency Comments
Although not required to comment, the Acting Director, DSCA, responded that he agreed that
NTM-A/CSTC-A should use SCIP as their accountability system for NVDs. He stated that
NTM-A/CSTC-A officials notified DSCA officials that NTM-A/CSTC-A would use SCIP, as of
January 1, 2012, as its primary database for tracking NVDs instead of using OVERLORD.

Our Response
The NTM-A/CSTC-A comments were responsive, and no additional comments are required.

      c. Perform complete physical inventories to account for the night vision devices
provided to the Afghan National Security Forces to include following up on previous
recommendations for corrective actions.

North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan
Comments
The Director, Security Assistance Office-Afghanistan, agreed and stated that the command
should continue to perform 100 percent annual inventories of NVDs provided to the ANSF. He
stated that the EUM inspectors at the Regional Support Commands under the Deputy
Commander-Special Operations work closely with the ANSF units. In addition, the Director
stated that the Security Assistance Office-Afghanistan continues to manage the EUM program
where they can centralize all recommendations and corrective actions.

Our Response
The NTM-A/CSTC-A comments were partially responsive. Although the Director agreed with
our recommendation, he did not identify how NTM-A/CSTC-A will change the process for
following up on corrective actions discovered during physical inventories. Therefore, we ask
that the Commanding General, NTM-A/CSTC-A, provide additional clarifying comments in
response to the final report identifying specific actions on following up on previous
recommendations for corrective actions.




                                             16 

       d. Retain copies of shipping, receipt, and transfer documents for all of the night
vision devices procured for the Afghan National Security Forces.

North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan
Comments
The Director, Security Assistance Office-Afghanistan, agreed and stated that NTM-A/CSTC-A
officials terminated the contract for the vendor previously running Depot 1. He stated that the
new contract for the vendors running Depot 1 and 22 Bunkers requires them to retain the
recommended documentation.

Our Response
The NTM-A/CSTC-A comments were responsive, and no additional comments are required.

       e. Verify that the contracting officer’s representative provides adequate oversight
to confirm the Depot 1 contractor is:

               (1) Maintaining accurate property records;

               (2) Retaining receipt and transfer documents; and

               (3) Conducting and maintaining accurate physical inventories.

North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan
Comments
The Director, Security Assistance Office-Afghanistan, agreed and stated that the Regional
Support Command-Capital is responsible for ensuring the Depot 1 and 22 Bunkers contractors
maintain the recommended records and conduct the required physical inventories.

Our Response
The NTM-A/CSTC-A comments were partially responsive. Although the Director agreed with
our recommendation, he only identified that the command is responsible for verifying that the
two contractors maintain the recommended records and conduct the required physical
inventories. He did not identify the specific actions that the command will take to confirm that
the contractors follow those procedures. Therefore, we ask that the Commanding General,
NTM-A/CSTC-A, provide additional comments in response to the final report identifying the
specific actions that the Regional Support Command-Capital will take.

       f. Provide oversight, as the responsible mentor, to the Afghan National Security
Forces and the Ministry of Defense and Ministry of Interior to verify proper
implementation of night vision devices accountability guidance for:

               (1) Maintaining accurate property books;



                                               17 

               (2) Reporting instances of compromise, destruction, unauthorized use, loss,
or theft;

               (3) Issuing night vision devices to individual soldiers on mission; and

               (4) Conducting physical inventories.

North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan
Comments
The Director, Security Assistance Office-Afghanistan, agreed and acknowledged that it is the
command’s responsibility to mentor the ANSF, MoD, and MoI on implementation of NVD
accountability guidance. He stated that mentors from the Deputy Commander-Army and Deputy
Commander-Police work with the MoD and MoI. In addition, the Director stated that
commanders from the Regional Support Commands and Deputy Commander-Special Operations
Forces personnel mentor the ANSF organizations in the field.

Our Response
The NTM-A/CSTC-A comments were partially responsive. Although the Director agreed with
our recommendation, he only identified that the command is responsible for mentoring the
ANSF, MoD, and MoI on implementation of NVD accountability guidance. He did not identify
the specific actions that the command will take to confirm that those organizations implement the
guidance for maintaining accurate property books; reporting instances of compromise,
destruction, unauthorized use, loss, or theft; issuing NVDs to individual soldiers on mission; and
conducting physical inventories. Therefore, we ask that the Commanding General,
NTM-A/CSTC-A, provide additional comments in response to the final report identifying the
specific actions that will be taken.

3. We recommend that the Commanding General, U.S. Army Communications-Electronics
Command, verify the contracting officer’s representative provides oversight to confirm the
Bagram Air Field repair facility contractor is conducting physical inventories and
maintaining accurate inventories of sensitive items.

U.S. Army Materiel Command Comments
The Executive Deputy to the Commanding General, U.S. Army Materiel Command, responded
for the Commanding General, CECOM. He agreed and stated that the CECOM Logistics and
Readiness Center Field Support Directorate Field Support Sustainment Division revised the
standard operating procedure for the Bagram Regional Support Command manager to require the
performance of monthly inventories for 100 percent accountability of all NVDs, associated spare
parts, and repair parts at each Regional Support Center. The Executive Deputy stated that the
contracting officer’s representative now receives reports for verification and completeness. In
addition, he stated that the CECOM Logistics and Readiness Center Field Support Directorate
Field Support Sustainment Division deploys Department of the Army civilians under the
Electronic Sustainment Support Center as contracting officer’s representatives for the task order




                                               18 

responsible for the ANSF sustainment support. These civilians deploy on a rotating basis,
providing key management and oversight controls to verify standardized operating procedures
are properly performed.

Our Response
The U.S. Army Materiel Command comments were responsive, and no additional comments are
required.

Other Matters of Interest
The Compliance Plans require that ANSF officials comply with U.S. specified requirements for
storing NVDs in locations with controlled access by authorized personnel. The Compliance
Plans also identify that the unit commander or his designated representative is responsible for
controlling access to the NVD storage area keys. The Decree 4.2 does not include specific
guidance related to physical security access controls. Although ANSF officials with the Afghan
Partnering Unit, Crisis Response Unit, and the 1st and 3rd Commando Kandaks had acceptable
physical security access controls, they did not document officials with authorized access to the
NVD secured areas. We did not identify any NVDs missing because of the lack of these
documents. However, NTM-A/CSTC-A officials should work with ANSF officials to add
sufficient, detailed guidance in the Compliance Plans and Decree 4.2 for documenting approved
personnel with authorized access to the NVD secured areas and verify proper implementation of
the new requirements.

The Director, Security Assistance Office-Afghanistan, stated that the Compliance Plans have
been updated as MoD and MoI NVD Control Plans, incorporating updates and guidance from
DSCA. In addition, the Deputy Commander-Army, Deputy Commander-Police, and Deputy
Commander-Special Operations Forces mentors will seek opportunities to appropriately update
Decree 4.2, the MoI Logistics Policy, and relevant security-specific policy documents. We
commend the Security Assistance Office-Afghanistan for taking action to update the
Compliance Plans as well as seeking opportunities to update other security guidance.




                                               19 

Appendix A. Scope and Methodology
We conducted this performance audit from April 2011 through April 2012 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

To evaluate accountability of NVDs and associated spare parts procured for the ANSF, we
obtained data from SCIP, OVERLORD, CoreIMSEE, MTSSA, and ANSF property books. We
obtained a June 8, 2011, universe from OVERLORD of 6,906 NVDs procured for the ANSF
since 2007 and disbursed across 16 ANSF units and 2 DoD contractor facilities in Afghanistan.
Due to travel restrictions and other security concerns, NTM-A/CSTC-A officials selected four
ANSF units and two DoD contractor facilities for the audit team to visit, reducing our
June 8, 2011, universe from OVERLORD to 3,573 NVDs.

To accomplish the audit objectives, we:
   •	 compared the June 29, 2011, SCIP data and June 28, 2011, OVERLORD data to DoD
       contractor shipping documents to validate the accuracy of the inventory tracking systems.
       Based on this comparison, we identified a total of 7,305 unique NVD serial numbers.
   •	 reviewed DoD policy for sensitive items provided to Afghanistan, including 

       DoD Manual 5105.38-M and DoD Instruction 4140.66;
	
   •	 reviewed Afghanistan policy for NVD accountability, including the MoD and MoI
       Compliance Plans, Decree 4.2, MoI Logistics Policy, and Golden Sentry Standard
       Operating Procedures;
   •	 interviewed officials from NTM-A/CSTC-A, CECOM, DSCA, the Defense Technology
       Security Administration, the Defense Logistics Agency, and the Defense Contract
       Management Agency to discuss their roles and responsibilities for ANSF NVD
       accountability;
   •	 performed site visits to meet with ANA and ANP officials and DoD contractors at the
       following locations:
           o	 1st Commando Kandak, Kabul, Afghanistan
           o	 3rd Commando Kandak, Kandahar, Afghanistan
           o	 Afghan Partnering Unit, Kabul, Afghanistan
           o	 Crisis Response Unit, Kabul, Afghanistan
           o	 Bagram Air Field repair facility, Bagram, Afghanistan
           o	 Depot 1, Kabul, Afghanistan
   •	 reviewed the physical security controls and internal control processes at the six locations
       to validate whether ANSF officials and DoD contractors had properly accounted for and
       safeguarded the NVDs;
   •	 performed physical inventories of all NVDs at the six locations visited to determine the
       accuracy of the NVD data in OVERLORD;
   •	 performed NVD serial number reconciliations of the results of our physical inventories to
       OVERLORD, CoreIMSEE, MTSSA, ANSF property book records, and MoD and MoI
       Form 9s received during our site visit to evaluate the accuracy of the data;



                                                20 

   •	 obtained missing shipping documents from a DoD contractor and Defense Contract
      Management Agency officials for all NVDs shipped to Afghanistan for the ANSF; and
   •	 requested additional supporting documentation for any discrepancies identified.

Use of Computer-Processed Data
We relied on computer-processed data from OVERLORD to identify a universe of NVDs
procured for the ANSF. We determined data reliability by performing physical inventories at six
locations. For NVDs not observed, we requested documentation, such as shipping and receiving
documents and property hand receipts, for verification. In addition, we compared OVERLORD
data to CoreIMSEE and MTSSA data and the results of the physical inventories. We also
compared OVERLORD data to SCIP data and DoD contractor shipping documents. Based on
our testing of CoreIMSEE, MTSSA, and SCIP, we determined the data in these systems were
unreliable. However, our assessment indicated that the OVERLORD data were sufficiently
reliable for the purpose of obtaining an initial universe of NVDs.

Prior Coverage
During the last five years, GAO, the Department of Defense Inspector General (DoD IG), and
the Air Force Audit Agency (AFAA) have issued three reports discussing NVD accountability.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports. AFAA reports can be
accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil.ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.

GAO
GAO Report No. GAO-09-267, “Lack of Systematic Tracking Raises Significant Accountability
Concerns about Weapons Provided to Afghan National Security Forces,” January 30, 2009

DoD IG
DoD IG Report No. SPO-2009-003, “Assessment of the Accountability of NVDs Provided to the
Security Forces of Iraq,” March 17, 2009

Air Force
AFAA Report No. F2011-0004-FD-3000, “Night Vision Equipment,” April 4, 2011




                                              21 

Appendix B. Receiving Records Comparison
To evaluate the accuracy of the inventory tracking system data, we compared June 29, 2011,
SCIP data and June 28, 2011, OVERLORD data to the available DoD contractor shipping
documents, * which identified a total of 7,305 unique NVD serial numbers. We identified several
discrepancies between the sources. The tables below summarize our comparisons.

      Table B-1. Total Number of NVD Serial Numbers in Contracts, Shipping Documents,

               SCIP, and OVERLORD, by Foreign Military Sales Case Number

             Case         Contract      Shipping
                                                        SCIP         OVERLORD
            Number        Quantity     Documents
         B6-B-AAK1         2,410          2,392          2,444           2,422
                                                               2
         B6-B-FCD          1,205          1,205          1,225           1,2262
         E3-B-UCA            792            792            797             790
         G5-B-UBK            572            572            572             573
         G5-B-UCA          2,178          2,178         2,078            2,178
             Total         7,157          7,139         7,116            7,189
          1
           The Kabul Regional Contracting Center procured the NVDs in this case.
          2
           This number includes 20 NVDs that were procured for Djibouti but erroneously shipped to Afghanistan and
           accounted for under this pseudo foreign military sales case.

We compared the serial numbers listed on the shipping documents to SCIP and OVERLORD.
We identified 342 serial numbers included in the shipping documents that were not listed in
SCIP and 88 serial numbers included in the shipping documents that were not listed in
OVERLORD. The following table provides the details of the discrepancies by pseudo-foreign
military sales case number.

                Table B-2. Unique Serial Numbers in Shipping Documents but Not in 

                                      SCIP or OVERLORD

                                     Case              Not in         Not in
                                   Number              SCIP         OVERLORD
                                 B6-B-AAK               237            78
                                 B6-B-FCD                 0             0
                                 E3-B-UCA                 5             7
                                 G5-B-UBK                 0             3
                                 G5-B-UCA               100             0
                                   Total                342            88




*
    We were unable to obtain shipping documents for 18 NVD serial numbers.


                                                         22
We compared the serial numbers listed in SCIP to OVERLORD and the shipping documents.
We identified 157 serial numbers included in SCIP that were not listed in the shipping
documents and 40 serial numbers included in SCIP that were not listed in OVERLORD. The
following table provides the details of the discrepancies by pseudo-foreign military sales case
number.

               Table B-3. Unique Serial Numbers in SCIP but Not in Shipping

                               Documents or OVERLORD

                                             Not in
                              Case                          Not in
                                            Shipping
                             Number                       OVERLORD
                                           Documents
                           B6-B-AAK            127             26
                           B6-B-FCD             20              0
                           E3-B-UCA             10             11
                           G5-B-UBK              0              3
                           G5-B-UCA              0              0
                             Total            157              40

We compared the serial numbers listed in OVERLORD to SCIP and the shipping documents.
We identified 138 serial numbers included in OVERLORD that were not listed in the shipping
documents and 113 serial numbers included in OVERLORD that were not listed in SCIP. The
following table provides the details of the discrepancies by pseudo-foreign military sales case
number.

               Table B-4. Unique Serial Numbers in OVERLORD but Not in 

                              Shipping Documents or SCIP

                                             Not in
                              Case
                                            Shipping      Not in SCIP
                             Number
                                           Documents
                           B6-B-AAK            108               4
                           B6-B-FCD             21               1
                           E3-B-UCA              5               4
                           G5-B-UBK              4               4
                           G5-B-UCA              0             100
                             Total            138              113




                                                23 

 Appendix C. NTM-A/CSTC-A, DoD Contractors,
 and Afghan National Security Forces
 Accountable Systems and Records Comparison
 We compared the 3,508 NVD serial numbers from OVERLORD, CoreIMSEE, MTSSA,
 MoD Form 9s, and ANSF property books to the results of our physical inventories for the
 6 locations visited and identified 923 discrepancies. For example, we physically inventoried
 190 NVDs at the Afghan Partnering Unit that NTM-A/CSTC-A officials listed in OVERLORD
 and on MoD Form 9s as assigned to the Afghan Partnering Unit, but Afghan Partnering Unit
 officials did not list them in the unit’s property book. During our audit, NTM-A/CSTC-A
 officials resolved 333 discrepancies and took corrective action on 61 additional discrepancies.
 The tables below summarize, by location, the discrepancies we identified and discrepancies that
 NTM-A/CSTC-A officials resolved.

   Table C-1. Serial Numbers Compared, Discrepancies Identified, Discrepancies Resolved,
                      and Discrepancies Unresolved at the ANSF Units
                         Serial Numbers    Discrepancies Discrepancies      Discrepancies
       Location
                           Compared          Identified       Resolved        Unresolved
1st Commando Kandak             334              17               3                141
3rd Commando Kandak                      581                     91                 0                     912
Afghan Partnering Unit                   826                  310                   0                  310
Crisis Response Unit                     100                  100                   0                  100

      Total                             1,841                 518                   3                  515
  1
    NTM-A/CSTC-A officials took corrective action for 13 discrepancies at the 1st Commando Kandak. Specifically,
   NTM-A/CSTC-A officials issued memoranda advising ANSF officials to update the unit property books for 12 of
   these discrepancies and provided an updated OVERLORD for 1 discrepancy. We did not receive the unit’s
   updated property books to verify the ANSF resolved the discrepancies.
  2
    NTM-A/CSTC-A officials issued memoranda advising ANSF officials to update the unit property books for 47 of
   these discrepancies. We did not receive the unit’s updated property books to verify the ANSF resolved the
   discrepancies.

     Table C-2. Serial Numbers Compared, Discrepancies Identified, Discrepancies Resolved,
                    and Discrepancies Unresolved at DoD Contractor Facilities
                         Serial Numbers     Discrepancies Discrepancies       Discrepancies
         Location
                            Compared          Identified      Resolved         Unresolved
     Bagram Air Field           628                 8              2                6
     Depot 1                         1,039                 397                  328                  69*
         Total                       1,667                 405                 330                   75
 *
     NTM-A/CSTC-A officials provided updated CoreIMSEE data for one of these discrepancies. We did not receive
     updated OVERLORD information or revisit Depot 1 to verify NTM-A/CSTC-A resolved the discrepancies.




                                                        24
Appendix D. Defense Security Cooperation
Agency Comments on the Finding and Our
Response
DSCA Comments
The Acting Director, DSCA, commented on the finding that DSCA could improve oversight of
CECOM and NTM-A/CSTC-A. He disagreed that shipping records should be used as source
documents for serial number information. He stated they have identified several errors in the
shipping documents during their NVD serial number inventories. These shipping document
errors resulted in incorrect data recorded by various agencies.

In addition, the Acting Director provided explanations on the discrepancies we identified
between the SCIP database and the shipping documents. He stated that the 100 NVDs shipped to
Afghanistan on May 23, 2011, were entered into SCIP on July 11, 2011. He stated that policy
requires serial number input into SCIP within 90 days of delivery. Therefore, according to
DSCA, these items were properly input within that time.

The Acting Director stated that 237 of the discrepancies identified were part of the 2,410 NVDs
procured by the Kabul Regional Contracting Center in May 2007. NTM-A/CSTC-A officials did
not use the proper process for coordinating and approving NVD exports with DSCA officials for
this purchase. DSCA officials became aware of the purchase on August 8, 2008, and
immediately instructed NTM-A/CSTC-A officials to perform a 100 percent physical inventory of
the NVD serial numbers and enter the serial number information into SCIP. NTM-A/CSTC-A
officials entered this information into SCIP on October 16, 2008. The Acting Director stated that
the discrepancies we identified were the result of either incorrect serial numbers listed in the
shipping records or incorrect data entered into SCIP by NTM-A/CSTC-A officials. He stated
that the errors were corrected through normal verification during the EUM process.

The Acting Director stated that five of the discrepancies identified were the result of manual data
entry errors by NTM-A/CSTC-A officials. He stated that DSCA officials verified and corrected
the errors.

The Acting Director stated that NTM-A/CSTC-A and DSCA maintain full accountability of the
NVDs currently transferred to the ANSF. He further stated that DSCA will continue to improve
accountability procedures to maintain an effective EUM program in Afghanistan.

Our Response
We used the shipping documents as a starting point since the shipping documents show what was
shipped and what should have arrived in Afghanistan. We acknowledge that errors can occur in
the shipping documents. These errors should be identified upon initial receipt of the NVDs.
Without an accurate list of the NVD serial numbers shipped to Afghanistan, DSCA officials
cannot accurately verify the NVDs that SCIP should include. DSCA officials did not provide the




                                                25 

auditors with documentation of errors they identified in the shipping documents. Therefore, we
could not substantiate the Acting Director’s position that the shipping documents were an
unreliable source.

We acknowledge that the revised SAMM, Chapter 8, “End-Use Monitoring (EUM),”
April 30, 2012, required the Security Cooperation Organization to verify receipt of NVDs by
serial number within 90 days of delivery. However, the SAMM, Chapter 8, “End-Use
Monitoring (EUM),” October 3, 2003, required that the Combatant Command or U.S.
Government representative conduct 100 percent inventories by serial number, for each NVD
shipment upon delivery. The 2003 version of the SAMM in effect at the time of our review did
not cite the 90-day allowance for performing the inventories. Therefore, the 100 serial numbers
shipped to Afghanistan on May 23, 2011, and not listed in SCIP, as of June 29, 2011, were not
input in compliance with the applicable guidance. In September 2011, we requested DSCA to
provide an updated version of the SCIP data to confirm that the discrepancies were resolved;
however, DSCA officials did not provide us with the updated information.

We agree that 237 discrepancies identified were part of the 2,410 NVDs procured by the Kabul
Regional Contracting Center. However, this procurement occurred in May 2007. The Acting
Director acknowledged that DSCA officials became aware of this purchase on August 8, 2008,
and that NTM-A/CSTC-A officials entered the serial number information into SCIP on
October 16, 2008. However, the 237 NVD serial numbers were not listed in SCIP, as of
June 29, 2011, almost 3 years later. Since 100 percent inventories are required annually for
NVDs, DSCA officials did not identify the discrepancies through normal EUM verification.
Rather, the discrepancies were only identified because of our audit. In September 2011, we
requested DSCA to provide an updated version of the SCIP data to confirm that the
discrepancies were resolved; however, DSCA officials did not provide us with the updated
information.

We identified five NVD serial numbers from shipments between December 2009 and
March 2010 that were not listed in SCIP, as of June 29, 2011. DSCA officials stated that they
corrected these errors after we brought them to their attention. In September 2011, we requested
DSCA to provide an updated version of the SCIP data to confirm that the discrepancies were
resolved; however, DSCA officials did not provide us with the updated information.




                                               26 

NTM-A/CSTC-A Comments






                                 NATO TRAINING MISSION - AFGHANISTAN
                         COMBINED SECURITY TRANSITION COMMAND - AFGHANISTAN
                                         KABUL, AFGHANISTAN
                                             APO AE 09356

           REPLY TO
           ATIENTIONOf


      NTM-A!CSTC-A SAO-A                                                               IQ APR 20 12


      MbMORANIJUM THI{U

      United States Forces - Afghani stan (eJlG), A PO AE 09356
      United States Central Command (eCIG), Mac Dill AFB, FL 3362 1

      FOR Office of the Department of Defense Inspector General (000 IG), 4800 Mark Center
      Drive, Alexandria, Virginia 23350

      SUBJECT: NTM-AICSTC-A Response to the Draft Report "Accountability of Night Vision
      Devices Procured for the Afghan l\ational Security Forces Needs Improvement" ( 0 0 0 1G Audit
      D2011-DOOOA T-022 1.000)


      I. Reference: Draft Report,S April 2012, Department of Defense Inspector General (000 IG ),
      subj ect as above.          Click to add JPEG file
      2. TItank you for the opportunity to respond to the DODIG report referenced. The DODIG team
      highlighted important Night Vision Device (NVD) accountability issues within the command
      and in the A fghan National Security Forces (A NSF).

      3. Concur with the repOit's findings and recommendations. Corrective action is outlined below:

              a. All NVDs must be reconci led against the shipping documents. The Depot I and 22
      Bunkers contractors, with oversight by DCOM·SPO's Regional Support Command-Capital
      (RSC·C), now reconc ile every shipment of NVDs as required. Additionally, the End-Use
      Monitoring (EUM) team at R SC-C performs a 100% post-delivery verification against the seri aJ
      numbers loaded into the Security Cooperation Information Portal (SCIP) by CECOM and
      l)SCA. Any discrepancies arc reso lved by SAO-A 's Validation Branch and CECOM Liaison
      Officer.

              b. SC IP should be used as the database of record for NVD Enhanced End-Use
      Monitoring (E-EUM). SAO-A completed migration tu SClP databast: in Jan 20 12. DCOM-SPO
      will conti nue to track NVDs in Depot I using CoreIMSee. ANSF units will continue to use
      paper-based property books for ultimate accountabi lity for all NVDs transferred to them.




                                                                27
NTM-NCSTC-A lJCU-SPT
SUBJECT: NTM -A/CSTC-A Response to the Draft Report "Accountability of Night Vision
Devices Procured for the Afghan National Security Forces Needs Improvement" (ODD IG Audit
D20 11-DOOOAT-022 1.000)


        c. The command should continue to perform annual 100% inventories of NVDs provided
to the ANSF. The E UM inspectors in the six Regional Support Commands (RSCs) under
DCOM-SPO provide close ties with the ANSF units. The EUM program continues to be
mallaged by the SAO-A Validation Branch i.n Kabul where they can centrali ze all
recommendations and corrective actions.

        d. The command must retain copies of shipping, receipt, and transfer documents for all
NVDs. NTM-A1CSTC-A terminated the contract for the vendor that was previously running
Depot I. The new contract for the vendor running Depot 1 and the vendor running 22 Bunkers
requires them to retain this documentation.

       e. It is the command's responsibility to ensure the depot contracto rs are maintaining the
appropriate records and conducting the required physic<1.l inventories. RSC-C is the responsible
command element for oversight of the Depot 1 and 22 Bunkers contractors.

       f. It is the command's responsibility to mentor Af\S F, MoD, and Mol on imp lementation
ufNVD accuuntabilily guidance. Eac h RSC COlIlmander takes that responsibil ity sel' iously .
Mentors from DCOM-Army and DCOM-Police work with MoD and Mo l while RSC
                            Click to add JPEG file
Commanders and DCOM -SOF personnel mentor A1\SF organizations in the field.

        g. NVD accountability policies and procedures require improvements. The NVD
Compliance Pl ans have been updated as MoD and Mol NVD Control Plans, incorporating
updates and the latest guidance from DSCA. MoD and Mol recently signed the new NVD
Contro l Plan. DCOM -Anny, DCOM- Po lice, and DCOYl-SOF mentors wi ll seek opportunities
to make appropriate updates to the MoD Decree 4.2 Materiel Accountability Policy and
Procedure:;, the MOl Policy Process for the Management of Logistics, and relevant sec llrily­
specific policy documents.

4. The nn;n' "f""n'""'                                                               Assistance
Office - Afghanistan'




                                            tt;{£~
                                             Director, Security Assistance Offi ce - Afghanistan
CF:
DCG-SPT
DCOM-SPO
DCOM-Army
DCOM-Police
DCOM-SOF




                                                           28
U.S. Army Materiel Command Comments
 





                                      DEPARTM ENT OF THE ARMY
                                HEADQUARTERS, U.S. ARMY MATERIEL COMMAND
                                            4400 MARTIN ROAD
                                     REDSTONE ARSENAl. At 35898-5000



      AMCIR                                                                  IAL 7 2012

                      1••
                      ~
                                '~~:;\ of Defense Inspector Genenll (DoDlG), A'ITN:
                                Program Director, Acquisition and Contract Management,
      4800 Marl< Center Drive, Alexandria, VA 22350-1500

      SUBJECT: Command Reply to DoDiG Draft Report - Accountability of Night Vision Devices
      Procnred for the Afghan National Security Forces Needs Improvement (project No. 02011-
      DOOOAT'{)221.000)


      I. The U.S. Army Materiel Command (AMC) has reviewed the subject draft report and the
      response from the U.S. Army Communications-Electronics Command (CECOM). AMC
      endorses the enclosed CECOM response.

                                     • • • • • • • • • • • • • • • • •oremail:

                                 Click to add JPEG file

      EncJ




                                                               29
                                DEPARTMENT OF TH E A RMY
                 HEADQUART ERS, US ARMY COMMUNICATIONS·ELECTRONICS COMMAND
                                      S002 COMBAT DRIVE
                       ABERDEEN PROVING GROUND, MARYLAND 21005·1845




AMSEL-JR                                                                        3 0 APR 2012


MEMORAN~UM                                      Director, Internal Review, HQ US Army Materiel
                              Re.lst(meArsenal , AL 35898-5000

SUBJECT; HQ CECOM Comments to DoDIG Draft Report: Accountabi lity of N ight Vision
Devices Pr6cured for the Afghan National Security Forces Need" Improvement, Project No.
020 I l-DOOOAT-022 1.000


1. The HQ US Anny Communications-Electronics Command (CECO M) response to the DoDIG
recommendations is pro vided at the enclosure.

2. Point of contact is • • • • • • • • • CECOM Internal Review Office, • • • • • •

3. One Vision, One Mission - The War lighter.




                                                A~~
                            Click to add JPEG file
Encl
                                                 Deputy to the
                                                   Commanding General

CF:
• • • • •III!IIII External Audit Liaison Officer, Internal Review, HQ US Anny Materiel
 Command, 4400 .Vlartin Road, Redstone Arsenal, AL 358-98-5000




                                                           30
          u.s. ARMY COMMUNICATIONS-ELECTRON ICS COMMAND
                               REI'LYTO
     DODIG DRAFT REPORT , ACCOUNTABILITY OF NIGHT VISION I)EVI CES
      PROCU RE D FOR THE AFG HAN NA TlONAL ECURITY FORCES NEEDS
                                           ll\fI'ROVEMJ<::NT
                                Project No. D201l -l)oooAT-0221.000


AUDIT CONCLUS ION,

TIle DOnIO auditors reviewed Afghan I alionai Security Forces (AI SF) and contractor
accountability for 7, 157 night vision devices (NV Ds) and associated spare tubes procured for the
ANSF. O  llIe Defense Security Cooperation Agency ( DSCA) officials, NATO Train ing Mi ssion­
Afghruli stan/Combincd Security Transition COll1mand-AfgluUlistan (NTM-AICSTC-A) offi c ial s,
  NSF o ffi cials, and DOD contractors did nol maintain complete accountability for NVDs and
assoc iated spare tubes procured for the ANSF. Specifically. the auditors identified ( 1) 342 VO
serial numbers were miss ing From Security Cooperation Infonnation Portal (SC[P) and 88 NV D
serial numbers were miss ing from Operati onal Verifi cation or Rcliable Logistics Oversight
Database (O VE RW AD) during Ollr shipping docum ents reconciliati ons; (2) 11 3 NV D serial
numbers were missin g from SCIP and 40 NV D serial numbers were mi ssing from O VERLOAD
in our SCIP and OVERLOAD compari son; (3) 75 NV Ds were unaccounted for during our
phys ical inventory; and (4) 397 discrepancies existed in the contractor' s database and 5 18
                                Click to add JPEG file
discrepancies across four units ' property books durin g thc auditor's accountable record
reconciliati ons.

TIle auditors believed lhis occurred because: ( 1) DS CA ollicinls did not provide adequ., lc
oversight to verify that CECOM and NTh'I-fVCSTC-A offi cials properly impl emented
procedures; (2) NT r"l-fVCSTC-A officia ls did not always reconcil e the NVDs rece ived to the
shipping documents, use SelP for NVD accountabi lity. perfonn complete physical in vcntories,
alld provide adequate overs ight ofDeD contractors and ANSF offi cials; and (3) U. S. Ann y
Communi cati ons-Electronics Command (CECOM ) officia ls did not provide adequate oversight
of the DoD contractor.

As a result, the auditors be lieve the NV Ds and associated spare lubes are more vulncrable 10 theft
or loss. 1.11 addition, officials Cilnllot rely on the diltil as a tool to detenn ine NV D requirements and
pcrfOOll eiTective end-usc monitoring.




                                                                 31
               RECOMMENDATION FOR THE COMMANDING GENERAL
              U.S. AR~n' COMMUNICATIONS-ELECTRONICS COMMAND


RRCOMMENDATION 3:

Verify the contracting offi cer's representati ve provides oversight to confinn the Bagram Air Field
repair facility contractor is conducting physical inventori es and maintaining accurate inventories
of sensitive items.

COMMAND COMMENTS AND AcrION TAKEN

Concur. CECOM Logistics and Readin ess Center (LRC) Field Support Directorate (FSD) Field
Support Sustainment Di vision (FSS D) wa') already prov idin g contractor oversi ght for thi s elTOI1
to include four other task orders and over 700 contractors. 111e previolls standard for reclirring
inventories was 10% monthly and 100% quarterly. l11crefore. we agree this standard needed
some improvement

As CECOM LRC FSD FSS D is responsible fo r the cotTective action, we immediately revised the
Standard Operating Procedure (SO l) for the Bagram RSC manager to conduct monthly
inventories for 100% accountabil ity o f all Night Vis ion Devices, associated spare parts and/or
repair parts at each Regional Support Center in support of ANSF. Reports are now provided to
                               Click to add JPEG file
the Contracting Offie~ r ' s Representati ve (COR) for verifi cation and completeness.

Also, CECO~,r LRC FSD FSSD cutTently deploys Department of Ann y C ivili ,Uls, on a rotating
bas is, under the Electronic Sustainment Support Center. During their deploym cnt, thcse Anny
Civilians are designated as COR s fo r the task order responsible for NSF sustainment support .
Additionally, the continuous rotation of Anny Civilians provides key management and oversight
controls to ens ure standard ized operating procedures arc being properly pcrfonncd.

TIle SOP and Lh e Contractor Quality Assurance Support Pl an were provided to the DO DIG
audit ors; Lll erefore, we be lieve our actions have successfully met the int ent of this
recollunend:atioll .

OTHER MATTERS,

Although Recommendati on I of this report is addressed to the De fense Security Cooperati on
Agency, it req uires act ions from CECOM (mld other commands) to properl y implement
procedures for inputtin g and validating the accuracy o f night vision dev ices rece ived in the
Security Cooperati on lnfonnation Portal .

CECO M is cutTently unable to implement the required actions as documented in the IG repon .
CECQM has never been granted the access ri gh ts to input data int o Llle SCIP SCQ toolboxlEUJ!.·i,
i.1S the a(.:cess entry/authorization poi nt is kept at the DSCA-EUM level. 111is is cons istent with
Chaptcr 8 of th e Security Assist.mcc t"itmagclUcnl Manual for enhanced EUM (End-Usc
Monitoring) which cites responsibility for MILDEPs and impl ementing agencies. CECOM
Security Assistance Management Directorate (SM'lD) Enterprise Soldier Avionics Divis ion

                                                  2




                                                               32
provides a monthly Night Vision Device (NV D) serial number repor110 USASAC. In additio n.
SAMD Intens ive Management Oflice provides a separate serialnllll1ber report for inputting into
the Security Cooperation Information !'ortal (SCU» . "Ihis report is provided prior to the phys ical
shipment of eq uipmcnllo DSCA-EUM.

We therefore recommend the current operati on procedure and pol icy for inpuning and va lidatin g
the accuracy of night vis ion devices received in the Security Cooperation hlfomltllion Portal be
reviewed for its current practicab il ity and distributed once updat ed.




                              Click to add JPEG file




                                                 3




                                                             33
Defense Security Cooperation Agency Comments






                                 DEFENSE SEC uRITY COOPERATION AGENCY
                                            20 1 1 2 -~ S' REET SOUT H :iTE 20)
                                               A.R, INGTO"! VA. 22202· S<loe



                                                                                          MAY 0 9 2012

       MEMORANDUM FOR INSPECJ'OR GENERAL OF THE DEPARTMENT OF DEFENSE

       SUBJECf: Draft Repon on the Accountability of Night Vision Devices (NVD) Procured for
                the Afghan National Security Forces (ANSF)

       Reference:    Depanment of Defense Office of the Inspector General. Draft Repon,
                     "Accountability of Night Vision Devices Procured for the Afghan National Security
                     Forces Needs Improvement (Project No. D2011-DOOOAT-0221.000)," April 5,
                     2012

              Thank you for the opponunity to review and provide comments on the subject repon.
       We have reviewed the repon and see value in the Depanment of Defense Office of the Inspector
       General (DoDIG) recommendations: however, we arc concemed the language used at times
       overstates possible flaws in our end·use monitoring (EUM) efforts. Our comments addressing
       the repon's recommendation for the Defense Security Cooperation Agency (DSCA) are attached.

                                    Click to add JPEG file
               I am disappointed that previous correspondence provided to your team was not included
       in the repon. Specifically. DSCA previously indicated to the DoDIG through informal
       correspondence. the 342 NVDs noted as a di screpancy between the Security Cooperation
       Information Pona) (SCIP) database and the shipping documents were a result of the followi ng :

              •      100 NVDs on pseudo--Forcign Military Sales (FMS) case G5-8-UCA were shipped
                    from the United States to Afghanistan on May 23. 2011. and were entered into SClP
                    on July 11,2011. Per Golden Sentry Program policy, the Security Cooperation
                    Organizations (SeO) must conduct a 100% visual physiCal inventory and enter the
                    NVD data in SCIP within 90 days of delivery. All 100 serial numbers were entered
                    into the database well within this 90 day window.

              •     237 of me remaining 242 NVD discrepancies were pan of 2,410 NVDs directly
                    purchased by the Kabul Regional Contracting Center in May 2007, through local
                    procurement using pseudo--FMS case 86-B-AAK. The Combined Security Transition
                    Command-Afghanistan (CSTC-A) did not use the proper process for coordinating and
                    approving NVD expons with OSCA. and as a result, OSCA did not become aware of
                    the purchase until August 8. 2008. Immediately after becoming aware of the transfer.
                    DSCA instructed CSTC-A to verify the NVD serial numbers through a 100% visual
                    phYSical inventory and enter the serial number information into SCIP. CSTC-A
                    verified the NVD serial numbers and entered this data into SCIP on October 16.2008.
                    Discrepancies noted by the DoDIG were the result of either incorrect serial numbers
                    listed in the shipping records or incorrect data entered into the database by CSTC· A
                    and was corrected through normal verification via the EUM process.




                                                                        34
       • The remaining 5 discrepancies identified on pseudo-FMS case E3-8-UCA were
         verified by DSCA to be the resu lt of manual data entry error by CSTC-A; these errors
           were corrected.

        Currently. full accountability of 12.061 NYDs transferred to tbe ANSP via Pseudo-PMS
cases in a war environment is being maintained by CSTC·A and DSCA. We will continue to
work to improve our accountability procedures and welcome viable recommendations result ing
from important audits such as this DoOIO report to maintain an effective EUM program in
Afghan istan. I tru st your assessment and recommendations will assist us with our efforts for
continu ous process improvement.

~ acto nthi s                                                     He may be contacted at
_                        or by telephone,




                                                      Rlchanl A- GeaalU., J ....
                                                         AdI.aa Director
Attachments:
As stated
                             Click to add JPEG file




                                                          35
                       DoDIG DRAFT REPORT DATED APRILS, 20 12
                        PROJECT NUMBER D2011-0000AT-0221.000

   "Accountability of Night Vision Devices Procured fo r the Afghan National Security Forces
                                    Needs Improvement"

         DEFENSE SECURITY COOPERATION AGENCY (DSCA) COMMENTS ON
       DoDIG DRAFT REPORT ON NIGHT VISION DEVICE (NVD) ACCOUNTAB ILITY

DSCA welcomes periodic reviews of important programs such as end· use monitoring (EUM) of
defense articles and services and appreciates the opportunity to comment on this draft report.
We believe the language used in the draft repon at times overstates possible flaws in our EUM
efforts , The primary method of analysis used for the audit consisted of contrasting unique serial
numbers and quantities of NVDs listed in contract's, shipping documents, the Combined Security
Transition Command-Afghanistan (CSTC-A) Operational Verification of Reliable Logistics
Oversight Database (OVERLORD). and DSCA's SClP database. Regarding DSCA. the repon
notes a discrepancy of 342 unique serial numbers listed in shipping documents. but not in the
Security Cooperation Information Ponal (SC IP). This discrepancy appears to be the basis for the
entire report's conclusions that DSCA must provide improved oversight of U.S. Anny
Communications-Electronics Command (CECOM) and CSTC-A. as well as validation of the
accuracy of NVD infonnation in SCIP.
                            Click to add JPEG file
We disagree with the DoDIG's use of the shipping records as source documents of serial number
infonnation to detennine improvement is needed in EUM oversight . We have found shipping
documents are not always 100% accurate, resulting in incorrect data recorded by various entities.
EUM policy requires 100% inventories of all NVDs. by serial number. within 90 days of
delivery. These initial inspections have discovered numerous shipping document errors.

DSCA previously indicated to the DoDIG through informal correspondence. the 342 NVDs
noted as a discrepancy between the SeIP database and the shipping documents were a result of
the following:

   •    100 NVDs on Pseudo-Foreign Military Sales (FMS) Case G5-B-UCA were shipped from
        the United States to Afghanistan on May 23, 2011, and were entered into SClP database
        on July 11,2011. Per Golden Sentry Program policy, the Security Cooperation
        Organizations (SCO) must conduct a 100% visual physical inventory and enter the NVD
        data in SCIP database within 90 days of delivery. All 100 serial numbers were entered
        into the SClP database well within this 90 day window.

   •    237 of the remaining 242 NVD discrepancies were part of 2.410 NVDs directly
        purchased by the Kabul Regional Contracting Center in May 2007, through local
        procurement using pseudo-FMS case B6-B-AAK. CSTC-A did not use the proper
        process for coordinating and approving NVD exports with DSCA, and as a result, DSCA
        did not become aware of the purchase until August 8, 2008. Immediately after becoming
        aware of the transfer, OSCA instructed CSTC-A to verify the NVD serial numbers
        through a 100% visual physical inventory and enter the seri al number information into




                                                           36
       SCIP database. CSTC-A verified the NVD serial numbers and entered this data into
       SCIP database on October 16. 2008. Discrepancies noted by the DoDlG were the result
       of either incorrect serial numbers listed in the shipping records or incorrect data entered
       into the SCIP database by CSTC-A and was corrected through normal verification via the
       EUM process.

   • The remaining 5 discrepancies identified on pseudcrFMS case EJ-B-UCA were verified
     by DSCA to be the result of manual data entry error by CSTC-A; these errors were
       corrected.

Currently. full accountability of 12.061 NVDs transferred to the Afghan National Security
Forces (ANSF) via Pseudo-FMS cases in a war environment is being maintained by CSTC-A
and DSCA. We will continue to work to improve our accountability procedures and welcome
viable recommendations resulting from important audits such as this DoDIG report to maintain
an effective EUM program in Afghanistan.

DSCA panially concurs with the report's recommendation that "the Director, DSCA, provide
adequate oversight to verify that CECOM, the NATO Training Mission-Afghanistan (NTM-A)
and CSTC-A properly implement procedures for inputting NVOs received and validating the
accuracy of the NVO infonnation in seIP."

DSCA does not have direct oversight authority over CECOM or NTM-A/CSTC-A. DSCA will
                            Click to add JPEG file
continue to work through the Depanment of the Army and the United States Central Command
(CENTCOM) to enhance procedures used by CECOM and NTM-NCSTC-A to ensure
consistent monitoring of sensitive technologies such as NVOs. OSCA has implemented metrics
to monitor accountability and progress of inventories perfonned by Security Cooperation
Organizations worldwide, including CSTC-A. OSCA has also included language in the updated
Chapter 8 of the Security Assistance Management Manual (SAMM) further delineating
responsibilities regarding the input of serial numbers into seIP and is pursuing an automated
process to enhance accountability of equipment provided via fMS which requires enhanced­
EUM (EEUM). OSCA will continue to monitor CSTC-A's compliance with DoD EUM policy
through follow-on Compliance Assessment Visits (CAV). A CAY to Afghanistan is scheduled
during the 211d Quarter of FYI3 to assess CSTC-A's implementation of Golden Sentry Program
policy and validate the accuracy of the NVD information in SC[P through inventories and
physical security checks of storage facilities.

DSCA concurs with the DoDIG's recommendations to NTM-NCSTC-A. particularly the use of
SClP as CSTC-A's accountability system for NVDs. Several of these findings were highlighted
during a DSCA CAY in February 2011. Since the CAY repan was published. DSCA has been
working with CSTC-A to implement these recommendations to improve ANSF physical security
and accountability of NVDs. In December 2011, CSTC-A notified DSCA that as of January I,
2012, CSTC-A would utilize SClP as its primary database for tracking NVDs instead of the local
OVERLORD database.




                                                          37
